OIG Investigative Reports, Providence R.I., July 30, 2012 - MET School Employee Pleads Guilty to Embezzling Federal Funds
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
THE DISTRCIT OF RHODE ISLAND
NEWS
News Release
U.S. Department of Justice
Peter F. Neronha
United States Attorney
District of Rhode Island
July 30, 2012
MET School Employee Pleads Guilty to Embezzling Federal Funds
PROVIDENCE, R.I. – Yashira Marrero, 27, of Providence, an administrative assistant for the 21st Century program at the Met School in Providence, pleaded guilty in federal court in Providence today to embezzling more than $27,000 of federal funds from the program, announced United States Attorney Peter F. Neronha.
Appearing before U.S. District Court Judge William E. Smith, Marrero admitted that between November 2007 and June 2009, she embezzled $27,400.19 from the 21st Century program by creating fictitious invoices from vendors, then forging endorsement signatures on payment checks and depositing the checks into her own bank account. Marrero also admitted to the court that she used a travel credit card belonging to the 21st Century program for personal expenses, including travel to Puerto Rico with her boyfriend.
The embezzlement schemes were discovered during an audit by the Rhode Island Department of Education.
Marrero, who pleaded guilty to one count of embezzlement from a program receiving federal funds, faces a maximum sentence of up to 10 years in federal prison followed by up to 3 years of supervised release, and a fine of up to $250,000 when she is sentenced on October 26, 2012.
The case is being prosecuted by Assistant U.S. Attorney Terrence P. Donnelly.
The matter was investigated by the U.S. Department of Education – Office of Inspector General and the Federal Bureau of Investigation.
###
Contact: 401-709-5357
USARI.Media@usdoj.gov
Top
Printable view
Last Modified: 08/14/2012
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov